TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Examiners Did Not Always Properly Select
                     the Prior and/or Subsequent Year Tax
                                    Returns



                                        February 13, 2009

                              Reference Number: 2009-30-034




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                February 13, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Examiners Did Not Always Properly Select the
                               Prior and/or Subsequent Year Tax Returns (Audit # 200730015)

 This report presents the results of our review to determine whether Examination function
 employees appropriately inspect and examine prior and/or subsequent year tax returns when
 warranted. This audit was conducted as part of our Fiscal Year 2007 Annual Audit Plan.

 Impact on the Taxpayer
 When a taxpayer’s tax return is selected for examination, to improve efficiency and identify
 additional tax owed, examiners should also inspect and examine, if warranted, prior, subsequent,
 and related year tax returns. Our review showed 14 (21 percent) of 68 sample cases warranted
 examination of the prior and/or subsequent year returns but were not selected for examination.
 When examiners do not make the proper decision to select returns for examination, taxpayers are
 not provided equitable treatment, and the examination is not as effective for improving taxpayer
 compliance on future tax returns.

 Synopsis
 The Internal Revenue Service (IRS) policy is that an examination covers not only the single tax
 period that initiated the examination, but also any and all open tax periods that affect the
 taxpayer’s return. Our review of a statistical sample of 68 closed cases worked by examiners in
 the Area Offices 1 determined that examiners did not always properly inspect prior and/or

 1
  A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
 understand and comply with tax laws and issues.
                            Examiners Did Not Always Properly Select the Prior
                                  and/or Subsequent Year Tax Returns



subsequent year returns and, therefore, did not make a proper decision to select these returns for
examination when warranted. In addition, examiners did not adequately document the decision
to examine associated years’ tax returns.
In 26 (38 percent) of 68 sample cases, there was no evidence that examiners inspected either the
prior or subsequent year returns to identify similar issues to the year under examination or if
large, unusual, or questionable items 2 existed that would warrant examination. If examiners do
not properly inspect prior and/or subsequent year returns, the examination is not performed as
efficiently and effectively as possible because additional cases that warrant examination might
not be identified. We identified 14 (21 percent) of 68 cases that warranted the examination of a
prior and/or subsequent year return, but the returns were not selected for examination. Although
managers reviewed 59 (87 percent) of the 68 cases, they did not review the cases early enough.
When the managers did get involved, they did not remain involved throughout the case. In 40
(68 percent) of the 59 cases, the managers reviewed the cases only one time.
Our review also showed that in 33 (49 percent) of the 68 cases, the case files did not include
adequate documentation to support the decision for not selecting the prior and/or subsequent year
returns for examination. Although managers reviewed most of the cases, they did not properly
explain or support their decision to not select the returns. Tax compliance officers did not
inspect the prior and/or subsequent year returns in a higher percentage of cases (30 percent) than
revenue agents. In the majority of these cases (71 percent), they did not complete the multi-year
lead sheet. Although this sheet is a resourceful tool that gives the examiners a reminder of the
areas that should be considered and checked when inspecting a tax return, it is only required to
be completed by the revenue agents. If examiners do not include support or a documented
explanation of how a decision is reached, then managers do not have a basis to measure the
examiners’ judgment. Also, well-documented and supported decisions will facilitate the IRS
position if the taxpayers challenge an issue, especially after the case is closed.
We also conducted an analysis of the correspondence examinations closed by campus 3
Correspondence function tax examiners. Our review of 68 cases (not the same cases as
previously mentioned) showed that in 31 (46 percent) cases campus Correspondence function tax
examiners could have examined the subsequent year tax return because the same issues adjusted
on the tax year return under examination were present on the subsequent year return. However,
IRS management informed us that campus Correspondence function tax examiners do not
inspect and select the related subsequent year tax returns. Instead, workload is identified on a


2
  Some factors to be considered when identifying large, unusual, or questionable items include: the comparative size
of an expense, if the nature of the item is significant, beneficial effect of the manner in which an item is reported,
and missing items on the return.
3
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to the taxpayer accounts.


                                                                                                                    2
                             Examiners Did Not Always Properly Select the Prior
                                   and/or Subsequent Year Tax Returns



national basis through the Small Business/Self-Employed Division Compliance Services
function national headquarters managers.
Because the current procedures do not permit campus Correspondence function tax examiners to
assess subsequent year tax returns and select them for audit, the IRS could be missing an
opportunity to conduct examinations more efficiently and consistently from year to year.
Expanding examinations in the campus Correspondence function program could increase the
efficiency of performing examinations, similar to how Field and Office Examination functions
perform their audits.

Recommendations
We recommended that the Director, Examination, Small Business/Self-Employed Division,
1) ensure that group managers place the appropriate emphasis on the requirement to consider
selection of prior and/or subsequent year tax returns for examination during documented
reviews, discussions, and/or other case related activities with their examiners, 2) ensure that
group managers require a clear-cut justification in the workpapers, and 3) require that tax
compliance officers use the multi-year lead sheet during examinations. We also recommended
that the Acting Director, Campus Compliance Services, Small Business/Self-Employed Division,
determine if there is an opportunity for campus Correspondence function tax examiners to
expand examinations to include subsequent year returns for limited issues.

Response
IRS management agreed with our recommendations. Management will reemphasize the
requirements for consideration of prior and/or subsequent year returns by ensuring appropriate
content is included in the Fiscal Year 2009 Examination All Managers’ Continuing Professional
Education training. They will discuss requirements with the area technical analysts during
monthly conference calls and require specific actions be implemented and submit articles for
inclusion in the Small Business/Self-Employed Division Group Managers’ Performance
Perspective and the Small Business/Self-Employed Division Technical Digest. In addition,
management will issue a memorandum requiring that all office examiners use the multi-year lead
sheet to document their actions regarding consideration of prior and/or subsequent year returns,
revise Examination Workpapers (Form 4700) and related workpapers to correspond with the use
of the administrative lead sheets, and update the Internal Revenue Manual. 4 They will revise
campus procedures to ensure that the appropriate analysis is conducted on current year
correspondence deficiency case closures to determine if the same issue appears in the subsequent
year return. Followup adjustment cases will receive priority in the examination workload


4
    The manual containing the procedures for IRS employees.
                                                                                               3
                      Examiners Did Not Always Properly Select the Prior
                            and/or Subsequent Year Tax Returns



assignment plan. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                       4
                                Examiners Did Not Always Properly Select the Prior
                                      and/or Subsequent Year Tax Returns




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Examination Function Management Has Emphasized the Procedures for
          Inspecting and Selecting Prior and/or Subsequent Year Tax Returns ..........Page 3
          Examiners Did Not Adequately Assess Prior and/or Subsequent
          Year Tax Returns or Maintain Sufficient Documentation to Support
          Their Actions ................................................................................................Page 3
                    Recommendation 1:..........................................................Page 6

                    Recommendation 2:..........................................................Page 7

          The Correspondence Examination Function Does Not Select the
          Subsequent Year Tax Returns for Examination While Auditing the
          Originally Selected Tax Year Return ...........................................................Page 7
                    Recommendation 3:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ...................... Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measure ................................................................Page 13
          Appendix V – Management’s Response to the Draft Report .......................Page 14
        Examiners Did Not Always Properly Select the Prior
              and/or Subsequent Year Tax Returns




                  Abbreviations

IRS         Internal Revenue Service
SB/SE       Small Business/Self-Employed
                            Examiners Did Not Always Properly Select the Prior
                                  and/or Subsequent Year Tax Returns




                                             Background

One of the goals of the Small Business/Self Employed
(SB/SE) Division Examination function is to conduct
efficient and quality examinations while encouraging                      IRS procedures state that when
compliance with the tax laws. The Examination                                 examining tax returns,
function’s policy is that examinations cover not only the                  examiners should inspect and
                                                                            possibly examine all related
single tax period that initiated the examination, but also                     returns if warranted.
any and all open tax periods that affect the taxpayer’s
return.
When examiners propose an adjustment to the tax year return under examination, they should
inspect the taxpayer’s prior and/or subsequent year (hereafter in this report, interchangeably
referred to as associated years) tax returns for proper filing and to evaluate audit potential.
Examining the prior and/or subsequent year returns and all related tax returns at the same time
has greater tax compliance impact. Also, it takes less time than examining single tax years at
various different times for the same taxpayer and contributes to a more efficient and effective
examination. From July 2007 through June 2008, there were 293,959 closed examinations from
Area Offices 1 of which 117,574 examinations (40 percent) were classified as closures related to
selecting additional tax years or related tax returns for examination.
There are three types of examinations:
    •    Field examinations typically conducted in a taxpayer’s place of business.
    •    Office examinations conducted in Internal Revenue Service (IRS) offices.
    •    Correspondence examinations conducted through the mail.
Revenue agents and tax compliance officers (hereafter in this report, interchangeably referred to
as examiners) conduct the field and office examinations. The examiner’s professional judgment
is required to determine if potential compliance issues exist that warrant expanding the
examination. For those cases containing proposed adjustments in the open year or the presence
of large, unusual, or questionable items 2 on the related returns, the examiners are required to
provide an explanation as to why they did not select the related or prior and/or subsequent year
tax return for examination.

1
  A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
2
  Some factors to be considered when identifying large, unusual, or questionable items include: the comparative size
of an expense, if the nature of the item is significant, beneficial effect of the manner in which an item is reported,
and missing items on the return.
                                                                                                             Page 1
                           Examiners Did Not Always Properly Select the Prior
                                 and/or Subsequent Year Tax Returns



Other tax examiners at various IRS campuses 3 located throughout the country conduct
correspondence examinations. These examinations are primarily done by mail. These cases are
less complex and require a lesser degree of accounting and auditing skills to perform the
examination than cases worked at the Area Offices. IRS procedures for correspondence
examinations state that consideration of associated years’ tax returns is a key element of one of
the auditing standards to produce a quality examination. Prior and subsequent year returns
containing the same issues as the tax year examined should be considered and pursued when
appropriate.
This review was performed at the SB/SE Division Examination and Campus Compliance
Services functions National Headquarters in New Carrollton, Maryland, during the period
July 2007 through September 2008. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




3
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to the taxpayer accounts.
                                                                                                         Page 2
                       Examiners Did Not Always Properly Select the Prior
                             and/or Subsequent Year Tax Returns




                                Results of Review

Examination Function Management Has Emphasized the Procedures
for Inspecting and Selecting Prior and/or Subsequent Year Tax
Returns
SB/SE Division management has been implementing various approaches to emphasize the
expectation that examiners inspect and select associated years’ tax returns for audit, when
warranted. During Fiscal Year 2008, Examination function management took the following
actions:
   •   Developed Field Examination function quality action plans with an emphasis placed on
       selecting additional tax years or related tax returns for examination.
   •   Highlighted in the March 2008 Keys to Success newsletter and a Technical Digest the
       importance of the required filing checks and selecting prior and/or subsequent year
       returns as part of a quality examination.
   •   Included in the Fiscal Year 2008 Continuing Professional Education a mandatory module
       that emphasized the required filing check and proper consideration of the prior and
       subsequent year returns.
   •   Included in an article in online guidance for managers the importance of selecting
       additional tax years or related tax returns for examination.

Examiners Did Not Adequately Assess Prior and/or Subsequent Year
Tax Returns or Maintain Sufficient Documentation to Support Their
Actions
Because taxpayers might have made the same kinds of errors in prior and/or subsequent years as
those made in the tax year under review, inspecting those returns provides the IRS with an
efficient means for identifying returns with a higher probability of adjustment. However, despite
SB/SE Division management’s efforts to emphasize this requirement, examiners did not always
properly inspect associated years’ tax returns when conducting the examination of the tax return
under review. In addition, examiners did not adequately document their decision to examine
associated years’ tax returns. As a result, examiners did not always make the proper decision to
select these returns for examination, which potentially reduced revenue, did not provide
equitable treatment of taxpayers, and was not effective in improving the taxpayers’ compliance
on future tax returns.

                                                                                            Page 3
                        Examiners Did Not Always Properly Select the Prior
                              and/or Subsequent Year Tax Returns



Examiners did not properly inspect and examine the associated years’ tax returns
An examiner must first inspect the associated years’
tax returns before they can be selected for examination
to identify similar issues to the year under examination     In 38 percent of our sample
                                                            cases, there was no evidence
or if large, unusual, or questionable items existed that     that tax examiners properly
would warrant examination. However, in                          inspected the prior/or
26 (38 percent) of 68 sample cases, there was no               subsequent tax returns.
evidence that examiners properly inspected the prior or
subsequent year tax returns as follows:
   •   In 15 cases, there was no evidence that examiners inspected both the prior and
       subsequent year returns.
   •   In three cases, the examiners inspected only the prior or subsequent year return, but not
       both.
   •   In eight cases, the examiners checked a box on a form showing that they inspected
       returns, but there was no evidence supporting the action.
One reason that proper actions were not always taken is because managers did not always review
or get involved in the cases early enough. Of the 68 reviewed cases, 9 (13 percent) had no
evidence of managerial involvement, while 28 (41 percent) were not reviewed until closure.
This means that more than one-half of the sample cases (54 percent) were either not reviewed, or
not reviewed until closure.
In addition, the manager’s first involvement occurred within the first 2 weeks after taxpayer
contact in just 19 (32 percent) of the 59 cases that had managerial involvement. More than 70
days had passed before the manager became involved in 30 percent of these cases. Further,
managers did not remain involved throughout the case development to ensure examiners
followed proper procedures. In 40 (68 percent) of the 59 cases, managers were involved once,
and there were only 4 (7 percent) where the manager
was involved more than twice.
As a result, examiners did not identify all associated        We identified an additional
years’ cases that warranted examination. Examiners         21  percent of our sample cases
                                                            that warranted an examination
selected prior and/or subsequent year returns for           of the prior and/or subsequent
examination in only 13 (19 percent) of the 68 cases in              year tax returns.
our statistical sample. However, we identified an
additional 14 cases (21 percent) that warranted an
examination of the prior and/or subsequent year returns. When examiners do not properly select
prior and/or subsequent year returns, examinations are not being performed as efficiently and
effectively as possible. Although we cannot estimate the amount of the potential tax assessments
from the 14 cases that warranted examination, the additional tax assessments for the controlling

                                                                                           Page 4
                        Examiners Did Not Always Properly Select the Prior
                              and/or Subsequent Year Tax Returns



In addition, our review showed tax compliance officers did not inspect the associated years’
returns in a higher percentage of cases (30 percent) than revenue agents and, in the majority of
these cases (71 percent), they did not complete the multi-year lead sheet. Although this sheet is a
resourceful tool that gives the examiners a reminder of the areas that should be considered and
checked when inspecting a tax return, it is only required to be completed by the revenue agents.
As stated in the previous section, managers reviewed 59 of the 68 cases. However, during these
reviews, managers did not ensure that there was supporting evidence to support the decision not
to examine the associated years’ returns. The examiner’s professional judgment is required to
determine if prior and/or subsequent year returns warrant examination. If examiners are not
including supported and documented explanations of how a decision is reached, then managers
do not have a basis to measure the examiners’ judgment. Also, it makes it more difficult for
managers to do their jobs of ensuring that tax examiners followed proper procedures. In
addition, well-documented and supported decisions will facilitate the IRS position if the
taxpayers challenge an issue, especially after the case is closed.

Recommendations
The Director, Examination, SB/SE Division, should:
Recommendation 1: Ensure all group managers place the appropriate emphasis on the
requirement to consider selection of prior and/or subsequent year tax returns for examination
during documented reviews, discussions, and/or other case related activities with their
examiners. In addition, group managers should ensure that there is a clear-cut justification in the
workpapers.
       Management’s Response: IRS management agreed with this recommendation.
       They will reemphasize the requirements for consideration of prior and/or subsequent year
       returns through the following actions:
       •   Ensure that appropriate content is included in the Fiscal Year 2009 Examination All
           Managers’ Continuing Professional Education Performance Feedback to Achieve
           Higher Quality and Increased Productivity training module.
       •   Discuss requirements with the area technical analysts during monthly conference calls
           and require specific actions be implemented that will provide improvement for each
           SB/SE Division Examination function.
       •   Submit articles for inclusion in the SB/SE Division Group Managers’ Performance
           Perspective and SB/SE Division Technical Digest.




                                                                                            Page 6
                           Examiners Did Not Always Properly Select the Prior
                                 and/or Subsequent Year Tax Returns



Recommendation 2: Require tax compliance officers to use the multi-year lead sheet during
examinations.
        Management’s Response: IRS management agreed with this recommendation and
        will:
        •    Issue a memorandum requiring that all SB/SE Division office examiners use the
             multi-year lead sheet to document their actions regarding consideration of prior
             and/or subsequent year returns.
        •    Revise Form 4700 and related workpapers to correspond with the use of the
             administrative lead sheets.
        •    Update Internal Revenue Manual 6 Section 4.10.9, Examination of Workpapers, to
             include the changes.

The Correspondence Examination Function Does Not Select the
Subsequent Year Tax Returns for Examination While Auditing the
Originally Selected Tax Year Return
Although IRS guidelines state that prior and/or subsequent year returns should be considered
when appropriate by campus Compliance Services Correspondence function tax examiners
(hereafter referred to as campus correspondence tax examiners), IRS Compliance Services
function management’s procedures do not permit campus correspondence tax examiners to select
associated year returns when they conduct examinations. Instead of requiring the campus
correspondence tax examiners to assess associated years’ returns, campus Compliance Services
function management controls the workload selection and delivery from a national level through
its headquarters office. Periodically, analysts review reports of closed inventory to identify
possible subsequent year return inventory and select returns for examination.
Our statistical sample of 68 closed correspondence cases, which was different from our other
sample of cases closed within the Area Offices, showed that for 31 (46 percent) cases, the same
issue adjusted on the tax year return under examination was present on the subsequent year tax
return. 7 Campus correspondence tax examiners could have examined the subsequent year tax
return on these cases at the same time that they examined the originally selected return. The
scope of a correspondence examination performed at a campus is limited to single tax years and
issues. Although campus correspondence tax examiners might not have been trained to evaluate


6
  The manual containing the procedures for IRS employees.
7
  The scope for this audit test was limited to the review of subsequent year returns. Due to the high volume of
correspondence cases, the fact that the campus workload deals with more recent tax returns, and the complexity
involved in examining prior year returns, the campus Correspondence function cannot effectively examine prior year
tax returns.
                                                                                                          Page 7
                        Examiners Did Not Always Properly Select the Prior
                              and/or Subsequent Year Tax Returns



an entire tax return for every issue, they are trained to address the same routine issues and could
recognize whether an issue was a concern in the subsequent year.
Because the current procedures do not permit campus correspondence tax examiners to assess
subsequent year tax returns and select them for audit, the IRS could be missing an opportunity to
conduct examinations more efficiently and consistently from year to year. Expanding
examinations in the campus Correspondence function program could increase the efficiency of
performing examinations, similar to how Field and Office Examination functions perform their
audits.

Recommendation
Recommendation 3: The Acting Director, Campus Compliance Services, SB/SE Division,
should determine if there is an opportunity for campus correspondence tax examiners to expand
examinations to include subsequent year returns for limited issues.
       Management’s Response: IRS management agreed with this recommendation.
       They will revise campus procedures to ensure that the appropriate analysis is conducted
       on current year correspondence deficiency case closures to determine if the same issue
       appears in the subsequent year return. Followup adjustment cases will receive priority in
       the examination workload assignment plan.




                                                                                             Page 8
                            Examiners Did Not Always Properly Select the Prior
                                  and/or Subsequent Year Tax Returns



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

Our overall audit objective was to determine whether Examination function employees
appropriately inspect and examine prior and/or subsequent year tax returns when warranted. To
accomplish this objective, we:
I.      Identified the IRS procedures and guidelines for pick up of prior and/or subsequent year
        tax returns for the Area Offices and campuses. 1
II.     Determined whether examiners within the Area Offices followed proper procedures. We
        reviewed the effectiveness of case actions and determined whether prior and/or
        subsequent year tax returns were inspected and examined during the examination when
        warranted.
        A. Extracted all examination closed cases from the Audit Information Management
           System, 2 with the following criteria: closed between July 1, 2006, and June 30, 2007;
           individual cases; small business taxpayers; worked by a revenue agent or a tax auditor
           in the Area Offices; and with specific selection reasons.
        B. Validated the data by comparing it to the IRS Integrated Data Retrieval System files
           to ensure that there was examination activity during our audit period of July 1, 2006,
           through June 30, 2007.
        C. From the population of 81,745 closed cases, selected a statistical sample of 68 closed
           cases to review, using a 95 percent confidence level, ±10 percent precision, and a
           23 percent error rate based on the results from the Examination function quality
           review results.
        D. Reviewed the examination closed cases and determined whether examiners inspected
           and examined prior and/or subsequent year tax returns when warranted.
             1. Developed a case review questionnaire using criteria and procedures identified.



1
  Area Offices are geographic organizational levels used by IRS business units and offices to help their specific
types of taxpayers understand and comply with tax laws and issues. Campuses are the data processing arm of the
IRS. The campuses process paper and electronic submissions, correct errors, and forward data to the Computing
Centers for analysis and posting to the taxpayer accounts.
2
  A computer system used to control returns, input assessments/adjustments to the Integrated Data Retrieval System,
and provide management reports. The Integrated Data Retrieval System is the IRS computer system capable of
retrieving or updating stored information; it works in conjunction with a taxpayer’s account records.
                                                                                                           Page 9
                           Examiners Did Not Always Properly Select the Prior
                                 and/or Subsequent Year Tax Returns



             2. Used the case review questionnaire and captured information from each case
                reviewed in an Access database. We reviewed cases and identified whether
                proper actions were taken.
             3. Identified the degree of managerial involvement on the closed cases.
III.    Determined whether campus correspondence tax examiners in the Compliance Services
        function should have examined subsequent year tax returns.
        A. Obtained a download from IRS management of the Examination Operational
           Automation Database 3 of closed correspondence cases with the following criteria:
           closed between July 1, 2006, and September 30, 2007; individual cases; small
           business taxpayers; and worked in the campus Compliance Services Correspondence
           function. During our review of cases, we validated through the Integrated Data
           Retrieval System that the cases selected for our sample were examination cases.
        B. Conducted a data analysis from the data obtained in Step III.A. and identified the
           primary reason for examination and the issues adjusted by the examiner. Using the
           population of 85,661 cases obtained from the data analysis, we selected a statistical
           sample of 68 closed cases for review. We used the following criteria: 95 percent
           confidence level, ±10 percent precision, and a 23 percent error rate based on the
           results from the Examination function quality review results.
        C. Used internal research tools to review the 68 closed cases and identified any trends
           that indicated whether the subsequent year tax returns could have been examined.
IV.     Discussed conclusions on the cases reviewed with IRS management and identified any
        reasons for Examination function employees and managers not inspecting or selecting
        prior and/or subsequent year tax returns during an examination when warranted.




3
 The database designed to track examination results by issue and related cause. These data are used to enhance the
ability to identify specific areas of noncompliance based on examination results.


                                                                                                         Page 10
                      Examiners Did Not Always Properly Select the Prior
                            and/or Subsequent Year Tax Returns



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Lynn Wofchuck, Audit Manager
Doris A Cervantes, Lead Auditor
Mike J. Della Ripa, Auditor




                                                                                      Page 11
                     Examiners Did Not Always Properly Select the Prior
                           and/or Subsequent Year Tax Returns



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Examination, Small Business/Self-Employed Division SE:S:E
Acting Director, Campus Compliance Services, Small Business/Self-Employed Division
SE:S:CCS
Director, Campus Reporting Compliance, Small Business/Self-Employed Division
SE:S:CCS:CRC
Director, Examination Policy, Small Business/Self-Employed Division SE:S:E:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                     Page 12
                            Examiners Did Not Always Properly Select the Prior
                                  and/or Subsequent Year Tax Returns



                                                                                                Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; 16,830 taxpayer accounts affected (see page 3).

Methodology Used to Measure the Reported Benefit:
We identified a population of 81,745 closed examination cases from the Audit Information
Management System 1 database meeting the following criteria: closed between July 1, 2006, and
June 30, 2007; individual cases; small business taxpayers; worked by a revenue agent or a tax
auditor in the Area Offices; 2 and with specific selection reasons. From this population, we
reviewed a statistical sample of 68 closed cases, using a 95 percent confidence level, ±10 percent
precision, and a 23 percent error rate based on the results from the Examination function quality
review results.
We reviewed the 68 cases to determine whether Examination function employees appropriately
inspected and examined prior and/or subsequent year tax returns when warranted. In 14 of the
68 cases, the prior and/or subsequent year returns warranted examination.
Based on these 14 cases, we estimated that 16,830 cases in our population might have had the
same situation. This is based on the ratio of 14 to 68 (.2058823) and applicable to the total
population of 81,745 cases, which resulted in 16,830 taxpayers who could be affected.




1
  A computer system used to control returns, input assessments/adjustments to the Integrated Data Retrieval System,
and provide management reports. The Integrated Data Retrieval System is the IRS computer system capable of
retrieving or updating stored information; it works in conjunction with a taxpayer’s account records.
2
  A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
                                                                                                           Page 13
       Examiners Did Not Always Properly Select the Prior
             and/or Subsequent Year Tax Returns



                                                   Appendix V

Management’s Response to the Draft Report




                                                            Page 14
Examiners Did Not Always Properly Select the Prior
      and/or Subsequent Year Tax Returns




                                                     Page 15
Examiners Did Not Always Properly Select the Prior
      and/or Subsequent Year Tax Returns




                                                     Page 16
Examiners Did Not Always Properly Select the Prior
      and/or Subsequent Year Tax Returns




                                                     Page 17
